Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


    MEDICARE INCORRECTLY
      PAID HOSPITALS FOR
  BENEFICIARIES WHO HAD NOT
  RECEIVED 96 OR MORE HOURS
  OF MECHANICAL VENTILATION


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                     September 2013
                                                      A-09-12-02066
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Medicare incorrectly paid hospital inpatient claims for beneficiaries who had not received
 96 or more hours of mechanical ventilation, resulting in $7.7 million of overpayments
 over 3 years.


WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays hospital costs at predetermined rates
for discharges of Medicare beneficiaries. The rates vary according to the Medicare Severity
Diagnosis-Related Groups (MS-DRGs) to which a beneficiary’s stay is assigned and the severity
level of the patient’s diagnosis. Certain MS-DRGs may be assigned only if a beneficiary has
received 96 or more hours of mechanical ventilation. (Mechanical ventilation is the use of a
ventilator or respirator to take over active breathing for a patient.) Previous Office of Inspector
General reviews of hospitals’ compliance with Medicare billing requirements identified
erroneous claims with MS-DRGs that required 96 or more hours of mechanical ventilation.

The objective of this review was to determine whether Medicare payments to hospitals for
inpatient claims with certain MS-DRGs that required 96 or more hours of mechanical ventilation
were correct.

BACKGROUND

The MS-DRG payment is, with certain exceptions, intended to be payment in full to the hospital
for all inpatient costs associated with the beneficiary’s stay. For MS-DRGs 207 and 870 to be
assigned to a claim, a beneficiary must have received 96 or more hours of mechanical
ventilation. A hospital indicates that a beneficiary has met this requirement by using procedure
code 96.72. If a beneficiary received fewer than 96 hours of mechanical ventilation, the
beneficiary’s stay is assigned to an MS-DRG with a lower severity level, resulting in a lower
payment.

Our audit covered $12,764,239 in Medicare payments to 290 hospitals for 377 inpatient claims
that we selected as at risk for billing errors. These claims had MS-DRGs 207 or 870 and dates of
service in calendar years 2009 through 2011 with patient stays in the hospital of 4 days (the
equivalent of 96 hours) or fewer.

WHAT WE FOUND

For 14 of the 377 selected claims, Medicare payments to hospitals were correct. However, for
the 363 remaining claims, Medicare payments to hospitals were incorrect. Specifically, the
hospitals incorrectly used procedure code 96.72 when the beneficiaries had not received 96 or
more hours of mechanical ventilation. Consequently, the claims were assigned incorrectly to
MS-DRGs 207 and 870, resulting in $7,714,825 of overpayments. The hospitals confirmed that
these claims were incorrectly billed and generally attributed the errors to incorrectly counting the
number of hours that beneficiaries had received mechanical ventilation or to clerical errors in



Medicare Payments for Inpatient Claims With Mechanical Ventilation (A-09-12-02066)                 i
selecting the appropriate procedure code. At the time of our audit, CMS did not have controls to
identify these erroneous claims.

Prompted by our review, CMS stated that it implemented a new length-of-stay edit for
continuous invasive mechanical ventilation for 96 consecutive hours or more. With this edit,
effective October 1, 2012, claims found to have procedure code 96.72 and a length of stay fewer
than 4 days are returned to the provider for validation and resubmission.

WHAT WE RECOMMEND

We recommend that CMS:

    •   ensure that the Medicare contractors recover the $7,714,825 in identified overpayments
        and

    •   direct the Medicare contractors to review any claims where procedure code 96.72 was
        used with a length of stay of 4 days or fewer and recover any overpayments after our
        audit period and before implementation of the length-of-stay edit.

CMS COMMENTS AND OUR RESPONSE

In written comments on our draft report, CMS partially concurred with our first recommendation
and concurred with our second recommendation. CMS stated that it is not possible to recover all
of the overpayments because 43 claims are beyond the 4-year reopening period. CMS stated that
it would attempt to recover the overpayments for the remaining claims consistent with the
agency’s policies and procedures.

We encourage CMS to recover the identified overpayments in accordance with its policies and
procedures. During our audit, the providers acknowledged that they had billed the claims in
error. We advised the providers to submit the adjusted claims to their Medicare contractors. For
24 of the 43 claims noted above, we determined that the Medicare contractors processed
adjustments submitted by providers.




Medicare Payments for Inpatient Claims With Mechanical Ventilation (A-09-12-02066)               ii
                                                     TABLE OF CONTENTS


INTRODUCTION .................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 The Medicare Program: Administration and Payment of Claims ..................... 1
                 Medicare Requirements for Hospital Claims and Payments ............................. 1
                 Hospital Inpatient Prospective Payment System and MS-DRG Payments ....... 2
                 MS-DRGs Requiring Beneficiaries To Have Received 96 or More Hours
                   of Mechanical Ventilation............................................................................... 2

           How We Conducted This Review.................................................................................. 3

FINDING ................................................................................................................................... 3

           Federal Requirements .................................................................................................... 3

           Medicare Incorrectly Paid Hospitals for Beneficiaries
            Who Had Not Received 96 or More Hours of Mechanical Ventilation ..................... 4

           CMS Implemented a New Length-of-Stay Edit for
            Continuous Mechanical Ventilation ........................................................................... 4

RECOMMENDATIONS ........................................................................................................... 5

CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ..................... 5

APPENDIXES

           A: Audit Scope and Methodology ................................................................................ 6

           B: CMS Comments ....................................................................................................... 8




Medicare Payments for Inpatient Claims With Mechanical Ventilation (A-09-12-02066)                                                                iii
                                                   INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays hospital costs at predetermined rates
for discharges of Medicare beneficiaries. The rates vary according to the Medicare Severity
Diagnosis-Related Groups (MS-DRGs) to which a beneficiary’s stay is assigned and the severity
level of the patient’s diagnosis. Certain MS-DRGs may be assigned only if a beneficiary has
received 96 or more hours of mechanical ventilation. 1 Previous Office of Inspector General
reviews of hospitals’ compliance with Medicare billing requirements identified erroneous claims
with MS-DRGs that required 96 or more hours of mechanical ventilation. 2

OBJECTIVE

Our objective was to determine whether Medicare payments to hospitals for inpatient claims
with certain MS-DRGs that required 96 or more hours of mechanical ventilation were correct.

BACKGROUND

The Medicare Program: Administration and Payment of Claims

The Medicare program provides health insurance coverage to people aged 65 and over, people
with disabilities, and people with end-stage renal disease. CMS administers the Medicare
program. Medicare Part A provides inpatient hospital insurance benefits and coverage of
extended care services for beneficiaries after hospital discharge.

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for services, conduct reviews and audits, and safeguard against fraud and
abuse. As part of claims processing, claim information such as patient diagnoses, procedures,
and demographic information are entered into the Medicare claims processing systems and are
subjected to a series of automated edits that are designed to identify cases that require further
review before classification into an MS-DRG.

Medicare Requirements for Hospital Claims and Payments

The Social Security Act (the Act) states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member” (§ 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services without information necessary to determine
the amount due the provider (§§ 1814(a) and 1815(a)).


1
    Mechanical ventilation is the use of a ventilator or respirator to take over active breathing for a patient.
2
 Medicare Compliance Review of John Muir Medical Center, Walnut Creek, for Calendar Years 2008 Through
2010 (A-09-11-02060), issued February 2012, and Medicare Compliance Review of University of California, San
Francisco, Medical Center for Calendar Years 2008 and 2009 (A-09-11-02034), issued September 2011.


Medicare Payments for Inpatient Claims With Mechanical Ventilation (A-09-12-02066)                                 1
Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

Hospital Inpatient Prospective Payment System and MS-DRG Payments

The Act established the inpatient prospective payment system (IPPS) for inpatient hospital
services provided to Medicare beneficiaries (§§ 1886(d) and (g)). Under the IPPS, CMS pays
hospital costs at predetermined rates for patient discharges. The rates vary according to the
MS-DRG to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The MS-DRG payment is, with certain exceptions, intended to be payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay. Because a patient may
undergo a procedure for a variety of reasons, the Medicare contractor uses software to group an
admission into a particular MS-DRG on the basis of many factors, including the principal
diagnosis, any present accompanying additional diagnosis, and the principal procedure.
Therefore, if the hospital reports an incorrect procedure code, the assigned MS-DRG may be
incorrect.

MS-DRGs Requiring Beneficiaries To Have Received 96 or More Hours
of Mechanical Ventilation

Mechanical ventilation is the use of a mechanical device to inflate and deflate the lungs.
Mechanical ventilation provides the force needed to deliver air to the lungs in a patient whose
ability to breathe is diminished or lost.

For a beneficiary’s stay to be assigned to the following MS-DRGs, the beneficiary must have
received 96 or more hours of mechanical ventilation:

    •    MS-DRG 207 is described as “Respiratory system diagnosis [with] ventilator support 96+
         hours.”

    •    MS-DRG 870 is described as “Septicemia or severe sepsis [with mechanical ventilation]
         96+ hours.” 3

A hospital indicates that a beneficiary has received 96 or more hours of mechanical ventilation
by using procedure code 96.72. 4 If a beneficiary received fewer than 96 hours of mechanical
ventilation, the beneficiary’s stay is assigned to a lower severity MS-DRG, resulting in a lower
payment. 5


3
  Septicemia is bacteria or other pathogenic organisms in the blood, a condition that often occurs with severe
infections. Sepsis is an illness in which the body has a severe response to bacteria or other pathogenic organisms.
4
 International Classification of Diseases, Ninth Revision, Clinical Modification (ICD-9-CM), defines procedure
code 96.72 as “Continuous invasive mechanical ventilation for 96 consecutive hours or more.”
5
 A hospital indicates that a beneficiary has received fewer than 96 hours of mechanical ventilation by using
procedure code 96.71.


Medicare Payments for Inpatient Claims With Mechanical Ventilation (A-09-12-02066)                                    2
HOW WE CONDUCTED THIS REVIEW

Our audit covered $12,764,239 in Medicare Part A payments to 290 hospitals for 377 inpatient
claims that we selected as at risk for billing errors. These claims had MS-DRGs 207 or 870 and
dates of service in calendar years (CYs) 2009 through 2011 with lengths of stay of 4 days or
fewer.

For each claim, we evaluated whether the beneficiary had received 96 or more hours of
mechanical ventilation as required by the MS-DRG, but we did not use medical review to
determine whether the services were medically necessary.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                                   FINDING

For 14 of the 377 selected claims, Medicare payments to hospitals were correct; the beneficiaries
had received 96 or more hours of mechanical ventilation. 6 However, for the 363 remaining
claims, Medicare payments to hospitals were incorrect. Specifically, the hospitals incorrectly
used procedure code 96.72 when the beneficiaries had not received 96 or more hours of
mechanical ventilation. Consequently, the claims were assigned incorrectly to MS-DRGs 207
and 870, resulting in $7,714,825 of overpayments. 7 The hospitals confirmed that these claims
were incorrectly billed and generally attributed the errors to incorrectly counting the number of
hours that beneficiaries had received mechanical ventilation or to clerical errors in selecting the
appropriate procedure code. At the time of our audit, CMS did not have controls to identify
these erroneous claims.

FEDERAL REQUIREMENTS

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly
(Pub. No. 100-04, chapter 1, § 80.3.2.2). In addition, the Manual states that hospitals may bill
only for services provided (chapter 3, § 10). Moreover, the Manual states that hospitals must bill
Medicare using ICD-9-CM in accordance with its official coding and reporting guidelines
(chapter 23, § 10).


6
  Although we selected claims with lengths of stay of 4 days or fewer, the “from” and “through” service dates on
these claims did not represent the complete length of stay.
7
 We were unable to determine the amount of the overpayment for 1 of the 363 claims. The hospital is in the
process of correcting the claim.


Medicare Payments for Inpatient Claims With Mechanical Ventilation (A-09-12-02066)                                 3
MEDICARE INCORRECTLY PAID HOSPITALS FOR BENEFICIARIES WHO
HAD NOT RECEIVED 96 OR MORE HOURS OF MECHANICAL VENTILATION

For 363 of the selected claims, Medicare payments to hospitals were incorrect. The hospitals
incorrectly used procedure code 96.72 on the claims when the beneficiaries had not received at
least 96 hours of mechanical ventilation. As a result of the incorrect procedure code, the claims
were assigned incorrectly to MS-DRGs 207 and 870.

For example, for one beneficiary, the documentation (e.g., time log for the mechanical
ventilation) showed that the beneficiary had received 73 hours of mechanical
ventilation. However, rather than selecting procedure code 96.71, defined as “continuous
invasive mechanical ventilation for less than 96 consecutive hours,” the hospital selected
procedure code 96.72, indicating that the beneficiary had received 96 hours or more of
mechanical ventilation. By using procedure code 96.72, the claim was incorrectly grouped into
MS-DRG 870 rather than 871, resulting in an overpayment of $34,506. 8

As a result of these errors, the hospitals received overpayments totaling $7,714,825. The
hospitals confirmed that these claims were incorrectly billed and generally attributed the errors to
incorrectly counting the number of hours that beneficiaries had received mechanical ventilation
or to clerical errors in selecting the appropriate procedure code. At the time of our audit, CMS
did not have controls to identify these erroneous claims.

CMS IMPLEMENTED A NEW LENGTH-OF-STAY EDIT FOR
CONTINUOUS MECHANICAL VENTILATION

Prompted by our review, on May 11, 2012, CMS proposed a change to the Medicare Code
Editor: the creation of a new length-of-stay edit for continuous invasive mechanical ventilation
for 96 consecutive hours or more. CMS stated: “It was brought to our attention that a number of
hospitals reporting … procedure code 96.72 … may be inaccurately reporting this code.”
Consequently, CMS performed an analysis of fiscal year 2011 data:

          … the data show that a total of 245 cases (41 percent) were grouped to MS-DRGs
          207 and 870 in error, resulting in approximately $25,000 in increased payments
          for each case (or approximately $6 million in increased payments for all 245
          cases). Based on the results of these figures … there is an even larger dollar
          amount that is being overpaid to hospitals. These overpayments justify the
          proposed corrective actions. However, we also note that the presumed amount of
          overpayments for claims having a length of stay less than 4 days, as discussed
          above, is merely an estimate based on the data analysis that has been conducted at
          this time. 9



8
 MS-DRG 871 is described as "Septicemia or severe sepsis [without mechanical ventilation] 96+ hours [with major
complication or comorbidity].”
9
    77 Fed. Reg. 27870, 27905–27906 (May 11, 2012).


Medicare Payments for Inpatient Claims With Mechanical Ventilation (A-09-12-02066)                            4
On August 31, 2012, CMS approved the implementation of a new length-of-stay edit for
continuous invasive mechanical ventilation for 96 consecutive hours or more. With this edit,
effective October 1, 2012, claims found to have procedure code 96.72 and a length of stay fewer
than 4 days are returned to the provider for validation and resubmission. 10

                                          RECOMMENDATIONS

We recommend that CMS:

       •   ensure that the Medicare contractors recover the $7,714,825 in identified overpayments
           and

       •   direct the Medicare contractors to review any claims where procedure code 96.72 was
           used with a length of stay of 4 days or fewer and recover any overpayments after our
           audit period and before implementation of the length-of-stay edit.

           CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS partially concurred with our first recommendation
and concurred with our second recommendation. CMS stated that it is not possible to recover all
of the overpayments because 43 claims are beyond the 4-year reopening period. CMS stated that
it would attempt to recover the overpayments for the remaining claims consistent with the
agency’s policies and procedures. CMS’s comments are included in their entirety as
Appendix B.

We encourage CMS to recover the identified overpayments in accordance with its policies and
procedures. During our audit, the providers acknowledged that they had billed the claims in
error. We advised the providers to submit the adjusted claims to their Medicare contractors. For
24 of the 43 claims noted above, we determined that the Medicare contractors processed
adjustments submitted by providers.




10
     77 Fed. Reg. 53258, 53313–53314 (Aug. 31, 2012).


Medicare Payments for Inpatient Claims With Mechanical Ventilation (A-09-12-02066)                  5
                        APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $12,764,239 in Medicare Part A payments to 290 hospitals for 377 inpatient
claims that we selected as at risk for billing errors. 11 These claims had MS-DRGs 207 or 870
(both requiring 96 or more hours of mechanical ventilation) and dates of service in CYs 2009
through 2011 with lengths of stay of 4 days or fewer (based on the “from” and “through” service
dates).

For each claim, we evaluated whether the beneficiary had received 96 or more hours of
mechanical ventilation as required by the MS-DRG, but we did not use medical review to
determine whether the services were medically necessary.

We limited our review of CMS’s internal controls to those applicable to the inpatient claims for
mechanical ventilation. Our review enabled us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from CMS’s National Claims History file, but we
did not assess the completeness of the file.

We conducted our audit from March to December 2012.

METHODOLOGY

To accomplish our objective, we:

       •   reviewed applicable Federal laws, regulations, and guidance;

       •   met with CMS officials to determine which MS-DRGs required 96 or more hours of
           mechanical ventilation and which internal controls were applicable to inpatient claims for
           mechanical ventilation;

       •   extracted inpatient paid claim data from CMS’s National Claims History file for
           CYs 2009 through 2011 for MS-DRGs 207 and 870;

       •   used computer matching, data mining, and data analysis techniques to identify for review
           377 claims with lengths of stay that were 4 days or fewer, which had payments totaling
           $12,764,239;

       •   requested that each hospital conduct its own review of the selected claims to determine
           whether the services were billed correctly;

       •   reviewed the itemized bills and medical record documentation, including the timelog for
           the mechanical ventilation and summary of the inpatient stay, provided by each hospital


11
     These 290 hospitals are located in 37 States, the District of Columbia, and Puerto Rico.


Medicare Payments for Inpatient Claims With Mechanical Ventilation (A-09-12-02066)                   6
         to determine whether the beneficiaries had received 96 or more hours of mechanical
         ventilation;

     •   used CMS’s PC Pricer to reprice each improperly paid claim to determine the payment
         amount for the revised MS-DRG, compared the repriced payment with the actual
         payment, and determined the value of the overpayment; and 12

     •   discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




12
  CMS’s PC Pricer is a tool used to estimate Medicare payments. Because of timing differences in the data used to
determine the payments, the estimated payments may not match exactly the actual claim payments.


Medicare Payments for Inpatient Claims With Mechanical Ventilation (A-09-12-02066)                                  7
                                             APPENDIX B: CMS COMMENTS 




     (
         .r-4"'."""'~

            . ~           DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services




         '"-"«                                                                                    Administrator
                                                                                                  Washington. DC 20201




                     DATE:             JUH '1. 1.2013

                     TO: 	           Daniel R. Levinson 

                                     Inspector General 


                                     Marilyn Tavenn~.AJ/.J'"><",.;:,r--l7.....'1A../'!J-.~-"-'""-""--'
                                                                  1

                     FROM: 	                                                   

                                     Administrator 


                         SUBJECT: 	Office of Inspector General (010) Draft Report: "Medicare Incorrectly Paid
                                   Hospitals for Beneficiaries Who Had Not Received 96 or More Hours of
                                   Mechanical Ventilation" (A-09-12-02066)


                     Thank you for the opportunity to review and comment on OIG's above-subject draft report. The
                     OIG's main objective was to determine whether Medicare payments to hospitals for inpatient
                     claims with MS-DRGs, 207 and 870 were correct and required 96 or more hours of mechanical
                     ventilation.

                     As stated in OIG's draft report, CMS has implemented a new length-of-stay edit for continuous
                     invasive mechanjcal ventilation for 96 consecutive hours or more effective October 1, 2012. The
                     edit will ensure that Medicare does not pay for claims found to have procedure code 96.72 and a
                     length of stay fewer than four days. The claims will be returned to the provider for validation
                     and resubmission. This Change Request (CR) 8041 outlines changes to the Inpatient Prospective
                     Payment System (IPPS) for Acute Care Hospital and the Prospective Payment System (PPS) for
                     Long Term Care Hospitals (LTCHs) for FY 20 13.

                      The findings ofthis audit, based on Calendar Years (CYs) 2009 through 2011 for MS-DRGs 207
                      and 870, found that Medicare incorrectly paid hospital inpatient claims for beneficiaries who had
                      not received 96 or more hours ofmechanical ventilation, resulting in $7,681 ,391 of
                      overpayments over three-years:3 0IG recommends that CMS (1) ensure that the Medicare
                      contractors recover the $7,681 ,391 in identified overpayments; and (2) direct the Medicare
                      contractors to review any claims where procedure code 96.72 was used with a length of stay of
                    · four days or fewer and recover any overpayments after our audit period and before
                      implementation ofthe length-of-stay edit. 	                                                !

                     The CMS has reviewed the report and responded to your recommendations below.




13
  Office oflnspector General Note: In our draft report, we noted that we were unable to detennine the amount of
the overpayment for 2 ofthe 363 claims. After we issued the draft repott, the Medicare contractor completed the
processing of one ofthe two claims. Therefore, the total overpayment amount is $7,714,825 .


.Medicare Payments for Inpatient Claims With .Mechcmical Ventilation (A-09-12-02066)                                                         8
             Page 2 - Daniel R. Levinson

             OIG Recommendation

             Ensure that the Medicare contractors recover the $7,681,391 in identified overpayments.

             CMS Response

             The CMS partially concurs with this recommendation because it is not possible to recover all
             363 overpayments identified by the OIG. In the overpayment data file, OIG indicated that one
             overpayment was adjusted by a hospital prior to the issuance of the draft report. Of the
             remaining 362 sampled claims with overpayments valued at an estimated $7,681,391, forty-three
             representing an estimated value of$884,986 cannot be reopened as a result of the claims being
             beyond the four year reopening period. CMS will attempt to recover the remaining 319
             overpayments valued at an estimated $6,796,405 consistent with the agency's policies and
             procedures.

             OIG Recommendation

             Direct the Medicare contractors to review any claims where procedure code 96.72 was used with
             a length of stay offour days or fewer and recover any overpayments after our audit period and
             before implementation of the length-of-stay edit.

             CMS Response

             The CMS concurs with this recommendation. CMS will direct contractor(s) to review claims
             from January 2012 through September 30,2012 where procedure code 96.72 was used with a
             length.of stay of four days or fewer for Acute Care Hospitals and Long Term Care Hospitals.
             CMS will recover any applicable overpayments.

             CMS appreciates the opportunity to comment on this report and we look forward to working
             with you in the future .




.Medicare Payments for Inpatient Claims With .Mechcmical Ventilation (A-09-12-02066)                         9
